              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Remote Treatment Facility




DOE/IG-0573                                 November 2002
                   U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                             November 5, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on the "Remote Treatment
                         Facility"

BACKGROUND

The Department of Energy stores about 676 cubic meters of highly radioactive solid waste at
the Idaho National Engineering and Environmental Laboratory (INEEL) reservation. The
Office of Nuclear Energy, Science and Technology's Argonne National Laboratory West
(Argonne West), located on the reservation, generated about half of this waste and is
responsible for its disposal. Argonne West also continues to generate highly radioactive waste
as part of its ongoing operations. The remainder of the waste on the reservation is the
responsibility of the Office of Environmental Management and consists of material generated as
a result of INEEL's historic mission to build and test nuclear reactors as well as waste
transferred to INEEL from other sites for interim storage.

Due to the high levels of radioactivity, the waste can only be safely processed by facilities
capable of remote manipulation or handling. To provide this capability, the Department plans
to construct a Remote Treatment Facility to segregate, characterize, treat, and repackage the
waste. Based on a 1998 Departmental decision to return waste management responsibilities to
the program office responsible for its generation, Nuclear Energy assumed responsibility for
developing the Remote Treatment Facility and began preconceptual design work on the
proposed facility.

We initiated this audit to determine whether the proposed facility was designed to treat all
remote handled solid waste at the INEEL reservation.

RESULTS OF AUDIT

The Department's conceptual plan for the Remote Treatment Facility design and schedule did
not provide the capability to treat all remote handled solid waste at the INEEL reservation.
Although the plan dealt with waste currently stored by Argonne West, as well as waste resulting
from its processes in the future, it did not specifically address treating the remaining INEEL
reservation highly radioactive solid waste, which was the responsibility of Environmental
Management. We found that the Department had not integrated all mission needs in the
planning process for the Remote Treatment Facility and, as a consequence, the Facility would
not be able to meet operation needs, nor would it be able to simultaneously process all remote
handled solid waste in accordance with established deadlines. We noted that the implications of
this could include fines and enforcement actions against the Department and, ultimately,
construction of a second remote handling facility or transportation of waste offsite for
treatment.
                                            -2-


The Office of Inspector General has addressed the need for a more comprehensive approach to
waste-disposal projects in a number of recent reports. Based, in part, on these observations
and our conclusion that, in a number of cases, waste-disposal operations could be more cost-
effective, we have identified Environmental Standards and Stewardship as among the most
difficult challenges the Department faces. In addition, members of the "Top-to-Bottom"
review team commissioned by the Assistant Secretary for Environmental Management noted
that the Department's sometimes fragmented approach to cleanup results in costly duplication
of effort.

In this context, we recommended that senior management of Nuclear Energy and
Environmental Management work together to design a facility that will permit the timely
treatment of all INEEL remote handled solid waste. Further, the Department should mandate
a performance management system to evaluate the adequacy and completeness of contractor
planning efforts. In response to Congressional direction issued in November 2001,
representatives from Environmental Management and Nuclear Energy began a series of
meetings to evaluate remote handled waste treatment options at INEEL. Based on the results
of those meetings, Environmental Management officials initiated an independent review to
determine whether the Remote Treatment Facility was needed. While yet to be reviewed or
approved, management informed us that it had updated a number of relevant planning
documents, including the conceptual design. Further, management believed that the outcome
of its independent review should resolve many of the concerns addressed in our report.

MANAGEMENT REACTION

Management agreed with our recommendations and indicated that Environmental
Management was waiting on the results of the independent review that is expected to be
completed in November 2002. Management officials also indicated that they are committed
to developing performance measures related to remediating INEEL remote handled waste.

Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
    Assistant Secretary for Environmental Management
    Director, Office of Nuclear Energy, Science and Technology
REMOTE TREATMENT FACILITY

TABLE OF
CONTENTS



               Overview

               Introduction and Objective .......................................................... 1

               Conclusions and Observations ................................................... 2


               Remote Handled Waste Treatment

               Details of Finding ........................................................................ 3

               Recommendations and Comments ........................................... 5


               Appendices

               1. Related Audit Reports .......................................................... 6

               2. Scope and Methodology ....................................................... 7

               3. Management Comments ...................................................... 9
OVERVIEW

INTRODUCTION AND   A significant amount of highly radioactive waste, currently about 676
OBJECTIVE          cubic meters, is stored at a number of locations at the Idaho National
                   Engineering and Environmental Laboratory (INEEL) reservation,
                   including Argonne National Laboratory West (Argonne West). In
                   addition, it is estimated that 5.8 cubic meters of remote handled waste
                   will be generated each year over the next 40 years at Argonne West.
                   This waste was produced by various site operations or transported from
                   other Department sites for interim storage. Because of high levels of
                   radioactivity, such waste can only be safely processed by facilities
                   capable of remote manipulation or handling. To provide such
                   capability, the Department of Energy (Department) planned to construct
                   the Remote Treatment Facility (RTF) to segregate, characterize, treat,
                   and repackage this waste. When initially conceived, and prior to
                   conceptual design, the RTF was to have the ability to treat all remote
                   handled solid waste produced or stored at the INEEL reservation at an
                   estimated cost of about $68 million.

                   While the Office of Environmental Management (Environmental
                   Management) has overall responsibility for the cleanup of legacy waste
                   at the INEEL reservation, the Office of Nuclear Energy, Science and
                   Technology (Nuclear Energy) is responsible for waste generated by past
                   and on-going operations at Argonne West. Based on a Departmental
                   decision to return waste management responsibilities to generators in
                   1998, Nuclear Energy assumed responsibility for developing the RTF
                   and began conceptual design work on the proposed facility.

                   Remote handled solid waste stored at the INEEL reservation is subject
                   to one or more of three mandates that require a plan and timetable for
                   treating the waste and preparing it for shipment to a final repository.
                   First, the October 17, 1995, "United States vs. Batt" Settlement
                   Agreement and Consent Order requires certain waste, including remote
                   handled transuranic waste in storage at the INEEL, be put in shippable
                   condition and removed from the State of Idaho no later than 2018.
                   Second, the INEEL Site Treatment Plan Consent Order with the State
                   of Idaho requires the Department to provide treatment capacity for
                   remote handled waste that has been in storage for over one year.
                   Finally, waste storage permits issued by the State of Idaho require the
                   Department to provide treatment capacity for all mixed wastes in
                   storage.




Page 1                                                       Introduction and Objective
                  The objective of this audit was to determine whether the proposed RTF
                  was designed to treat all remote handled solid waste in storage or to be
                  generated at the INEEL reservation.


CONCLUSIONS AND   The Department's conceptual plan for the RTF design and schedule did
OBSERVATIONS      not provide the capability to treat all remote handled solid waste at the
                  INEEL reservation. The plan addressed waste then stored at, and to be
                  generated by Argonne West, but did not contain specific plans for
                  treating other highly radioactive solid waste stored at the INEEL
                  reservation. Based on our review of the conceptual design, we
                  determined that the facility would be unable to simultaneously satisfy
                  operational needs and process all remote handled solid waste within
                  established legal and statutory deadlines. This problem occurred
                  because the Department did not integrate all mission needs in the
                  planning process. Unless progress is made on a treatment facility, the
                  Department may have to curtail site operations, may be subject to fines
                  and enforcement actions, and may have to make alternate plans to
                  construct an additional facility or to transport certain remote handled
                  waste to another location.

                  In our opinion, the matters discussed in this report should be considered
                  by management when preparing its yearend assurance memorandum on
                  internal controls.


                                                               (Signed)
                                                        Office of Inspector General




Page 2                                                   Conclusions and Observations
REMOTE HANDLED WASTE TREATMENT

Planned Approach        Despite being designated in the Site Treatment Plan as the "path
                        forward" for all of the Idaho reservation's remote handled solid waste,
                        the conceptual design for RTF did not provide the capability to treat all
                        such waste. As described in the conceptual design, the RTF would only
                        be capable of processing current or future waste from Argonne West.
                        As such, the proposed facility would not be appropriately sized to
                        permit the simultaneous processing of both Argonne West and remote
                        handled waste from the rest of the INEEL. Initial planning documents
                        and the draft RTF environmental assessment indicated that remote
                        handled waste stored at locations other than Argonne West and
                        managed by Environmental Management could be processed at RTF as
                        a follow-on activity. However, both site and contractor officials told us
                        this option was not viable because it would not permit treatment and
                        removal from the State by the deadline of 2018 called for in the 1995
                        settlement agreement.

                        Even though an independent engineering study concluded that RTF was
                        the most cost effective means of treating all INEEL remote handled
                        waste, the Department subsequently chose to limit the scope of the
                        facility. The re-scoping occurred when responsibility for the project
                        was transferred from Environmental Management to Nuclear Energy in
                        1998. Nuclear Energy proceeded separately because of its need to treat
                        remote handled waste from continuing operations and the requirement
                        to maintain Argonne West's Resource Conservation and Recovery Act
                        storage permits. Officials told us that maintenance of such permits was
                        essential to decommissioning activities for the Experimental Breeder
                        Reactor II and the cleanup of other contaminated facilities at Argonne
                        West. Nuclear Energy’s planning efforts culminated in a design that
                        would permit continued Argonne West processing; however, it
                        provided no capacity to treat other remote handled waste at INEEL.


Facilities Management   Departmental facilities management policies require that sites or
Requirements            organizations take an integrated, corporate centered approach to facility
                        design and construction. DOE Order O 430.1 requires that "…every
                        site shall be supported by a Headquarters program office that functions
                        as landlord. Landlords shall coordinate their facilities management
                        activities to provide a consistent corporate approach…" Programs and
                        sites are required to employ a formal, comprehensive, integrated, and
                        documented planning process that is sufficient in scope to consider all
                        current mission needs. Project managers are required, at a minimum, to




Page 3                                                                       Details of Finding
                        identify technical and organizational interfaces and integration with
                        other projects and activities prior to the commencement of conceptual
                        design.


Design and Planning     Based on our audit, we concluded that the Department did not take a
to Meet Mission Needs   corporate approach and did not integrate all mission needs in the RTF
                        planning and design process. While early planning efforts properly
                        considered all remote handling needs for the INEEL reservation, the
                        Department subsequently elected to concentrate on only one of the
                        major generators at the site. All relevant mission needs, including the
                        need to process remote handled waste stored or managed by
                        Environmental Management, should have been considered and
                        incorporated into the preconceptual design of the RTF. Had the
                        Department adopted an inclusive approach as required by its own
                        facility management directive, the conceptual design could have
                        provided the capability to process all remote handled waste in
                        accordance with legal mandates.

                        We also noted that while the Department had established performance
                        measures as required by the Government Performance and Results Act
                        of 1993, such measures were not sufficient in scope and did not address
                        the ultimate disposition of all site remote handled solid waste.
                        Specifically, the Fiscal Year 2002 measures focused only on
                        completing the conceptual design for RTF and the National
                        Environmental Policy Act determination for disposal of highly
                        radioactive waste at Argonne West. They did not address the
                        remediation of remote handled waste managed by Environmental
                        Management.


Potential Legal and     The Department's conceptual design would not enable it to disposition
Cost Consequences       Environmental Management's remote handled waste without incurring
                        substantial costs to build a separate facility or to transport the waste to
                        another processing facility. Unless all remote handled waste is
                        addressed, the Department may have to curtail site operations, is at risk
                        of violating legal mandates, and may be subject to fines and
                        enforcement actions. If these mandates are not satisfied, the
                        Department could lose the State of Idaho environmental operating
                        permits for all of its INEEL storage facilities. At the extreme, we
                        believe that the Department could find it necessary to build a redundant




Page 4                                                                         Details of Finding
                      facility at a cost of as much as $44 million, the estimated cost of the
                      facility designed to accommodate Argonne West waste only.


RECOMMENDATIONS       We recommend that the Assistant Secretary for Environmental
                      Management, in conjunction with the Director, Office of Nuclear
                      Energy, Science and Technology:

                            1.    Arrive at a decision in a timely manner on whether there is
                                  a need for construction of a specialized facility to treat
                                  remote handled solid waste located at Argonne West and
                                  INEEL;

                            2.    Ensure adoption of a corporate approach that integrates all
                                  current mission needs and legal considerations regardless of
                                  the method of disposition selected; and,

                            3.    Develop specific performance measures to assess progress
                                  in dispositioning all remote handled waste at Argonne West
                                  and INEEL.


MANAGEMENT REACTION   Based on conversations with management, we learned that they agreed
                      with our recommendations. The Department advised that several
                      actions, including the development of a mission need statement to
                      address all remote handled waste at the reservation, had been initiated
                      and should resolve most of the Office of Inspector General's concerns
                      on the RTF. While it had yet to be reviewed and approved,
                      management also indicated that it had taken action to update the
                      conceptual design. Furthermore, management indicated Environmental
                      Management was waiting for the results of an independent review of
                      the RTF that was directed in an FY 2002 House Conference Report.
                      Management's comments are contained in their entirety in Appendix 3.


AUDITOR COMMENTS      Management's comments are responsive to our recommendations.




Page 5                                                   Recommendations and Comments
Appendix 1

                                    RELATED AUDIT REPORTS


     •   Idaho Operations Office Planned Construction of a Waste Vitrification Facility, (DOE/
         IG-0549, April 1, 2002). The audit found that the Department had not adequately
         considered potentially less costly alternatives to constructing the vitrification facility,
         including several proposed by the National Research Council.

     •   Idaho Operations Office Mixed Low-Level Waste Disposal Plans, (DOE/IG-0527,
         September 28, 2001). The audit found that Idaho's plans to dispose of its mixed low-
         level waste at WIPP were inconsistent with the Department's waste disposal strategy.

     •   Utilization of the Department's Low-Level Waste Disposal Facilities, (DOE/IG-0505,
         May 25, 2001). The audit found that the Department had not developed and
         implemented a corporate approach to maximize the safe and cost-effective disposal of
         low-level waste.

     •   Disposal of Low-Level and Low-Level Mixed Waste, (DOE/IG-0426, September 3, 1998).
         The Department's strategy for disposal of low-level and low-level mixed waste was not
         as cost-effective as possible.




Page 6                                                                              Related Audit Reports
Appendix 2

SCOPE         The audit was performed from October 10, 2001, to April 19, 2002, at
              Argonne, IL; Idaho Falls, ID; and Germantown, MD. The scope of this
              audit included the need for treating remote handled radioactive waste
              present at numerous sites on the Idaho National Engineering and
              Environmental Laboratory grounds.


METHODOLOGY   To accomplish the audit objective, we:

              •   Interviewed officials from Nuclear Energy's Office of Nuclear
                  Facilities Management;

              •   Interviewed officials from Environmental Management's Small
                  Sites Closure Office and their Waste Isolation Pilot Plant Office;

              •   Interviewed officials from the Argonne National Laboratory (ANL),
                  ANL West, the Argonne Area Office (AAO), AAO West, the Idaho
                  National Engineering and Environmental Laboratory (INEEL), the
                  Chicago and Idaho Operations Offices, and supporting contractors
                  from both Argonne West and INEEL;

              •   Reviewed applicable documentation generated prior to and during
                  the preconceptual activities of the project;

              •   Evaluated federal and Departmental regulations concerning RTF
                  planning, construction, and management;

              •   Reviewed Congressional direction concerning the Department's
                  need and funding of the RTF; and,

              •   Reviewed NE efforts to obtain Departmental support for the RTF
                  and coordinate with Environmental Management in the conceptual
                  design phase of RTF planning.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective.




Page 7                                                      Scope and Methodology
         Accordingly, the assessment included reviews of Departmental orders
         and directives, and the initial and preconceptual planning documents.
         Because our review was limited, it would not necessarily have disclosed
         all internal control deficiencies that may have existed at the time of our
         audit. We did not conduct a reliability assessment of computer-
         processed data because such information was not considered critical to
         satisfying our audit objective. Finally, we evaluated the Department's
         expectations and performance measures for the RTF.

         We held an exit conference with Environmental Management and
         Nuclear Energy on September 19, 2002.




Page 8                                                 Scope and Methodology
Appendix 3




Page 9       Management Comments
                                                                              IG Report No.: DOE/IG-0573

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
